No:
IN THE
SUPREME COURT OF THE UNITED STATES
ANDERSON JEAN,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS.

Petitioner, Anderson Jean, pursuant to SUP CT. R. 39.1, respectfully moves for leave to file
the accompanying petition for writ of certiorari in the Supreme Court of the United States without
payment of costs and to proceed in forma pauperis.

Petitioner was previously found financially unable to obtain counsel and undersigned counsel
was appointed to represent him by United States District Court for the Southern District of Florida,
under 18 U.S.C. ยง 3006A (the Criminal Justice Act). Therefore, in reliance upon RULE 39.1 and ยง
3006A(d)(6), Petitioner has not attached the affidavit which would otherwise be required by 28

U.S.C. ยง 1746.
es

Timothy Cone

Counsel for Petitioner Anderson Jean
1615 New Hampshire Avenue NW,4" floor (North)
Washington, DC 20009

Washington, DC Tel. (202) 862-4333

April 2021
